HHS/OIG-Audit--"Review of Management Controls Over the Medicaid Prescription Drug Rebate Program, (A-06-92-00029)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Management Controls Over the Medicaid Prescription Drug Rebate
Program," (A-06-92-00029)
June 9, 1993
Complete
Text of Report is available in PDF format (1.54 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Health Care Financing Administration (HCFA)
has not ensured that States have established adequate accountability and controls
over the Medicaid drug rebate program. At the eight States we reviewed, we noted
that (1) proper accountability had not been established over billing and collection
of rebates, (2) six of the States did not have policies and procedures for settling
disputes within the required time frame, (3) conflicting HCFA guidelines caused
confusion regarding what a State is required to bill drug manufacturers, and (4)
internal controls had not been established over rebate program funds. The HCFA
concurred with our recommendations for corrective action.